APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(July 3, 2019). . . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Eastern District
of Louisiana
(August 29, 2018) . . . . . . . . . . . . . App. 9
Appendix C Order & Reasons in the United States
District Court for the Eastern District
of Louisiana
(August 15, 2018) . . . . . . . . . . . . App. 11
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(August 2, 2019) . . . . . . . . . . . . . App. 20
Appendix E Complaint for Damages in the United
States District Court for the Eastern
District of Louisiana
(June 10, 2011) . . . . . . . . . . . . . . App. 22

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-31032
[Filed July 3, 2019]
_________________________________________
WILLIAM BOATENG,
)
)
Plaintiff–Appellant,
)
)
v.
)
)
BP, P.L.C.; BP EXPLORATION &
)
PRODUCTION, INCORPORATED;
)
BP AMERICA, INCORPORATED;
)
BP PRODUCTS NORTH AMERICA,
)
INCORPORATED; BP INTERNATIONAL )
LIMITED,
)
)
Defendants–Appellees.
)
_________________________________________ )
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:11-CV-1383
Before DAVIS, HIGGINSON, and WILLETT, Circuit
Judges.

App. 2
PER CURIAM:*
William Boateng appeals the dismissal of his unjust
enrichment claim against BP. While the district court
seemingly dismissed Boateng’s case under Rule
12(b)(6), it implicitly converted the dismissal into a
grant of summary judgment by considering matters
outside the pleadings. Because no reasonable juror
could find for Boateng, summary judgment was
appropriate. Thus, we AFFIRM the district court’s
grant of summary judgment.
Boateng also asks for leave to amend his complaint,
arguing that the district court failed to balance the
proper factors. However, even assuming the district
court erred, it was harmless since Boateng’s claim is
without merit. Therefore, we DENY his request.
I
During the Deepwater Horizon oil spill back in 2010,
BP asked the public to submit potential solutions to fix
the oil leak. Boateng alleges that he provided BP with
“a detailed proposal of plans to cap the well and shut
down the leak” and that BP then used “substantially
the same” methods “to cap the well and shutoff [sic] the
leak of oil.” BP then refused to compensate Boateng. As
a result, Boateng alleges he “has suffered damages
including, but not limited to, loss of income.”
Boateng filed a complaint against BP alleging
breach of contract and, in the alternative,
*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 3
“misappropriation of plaintiff’s idea”—a remedy not
found in Louisiana law. BP filed a motion to dismiss
under Rule 12(b)(6). In Boateng’s opposition to BP’s
motion, he included a new cause of action for unjust
enrichment plus five exhibits of evidence.
The district court considered his original causes of
action for breach of contract and misappropriation as
well as his new claim for unjust enrichment and
dismissed them all under Rule 12(b)(6). Boateng timely
appealed.
II
A
The district court had diversity jurisdiction under
28 U.S.C. § 1332. And we have jurisdiction under 28
U.S.C. § 1291.
B
Although the district court seemed to dismiss
Boateng’s claims under Rule 12(b)(6), the district court
implicitly granted a summary judgment motion by
considering matters beyond the pleadings. FED. R. CIV.
P. 12(d). We review a district court’s grant of summary
judgment de novo. Hyatt v. Thomas, 843 F.3d 172, 176
(5th Cir. 2016).
III
A
A district court converts a Rule 12(b)(6) motion to
dismiss into a motion for summary judgement when
“matters outside of the pleadings are presented to and

App. 4
not excluded by the court.” FED. R. CIV. P. 12(d). Such
matters include evidence introduced in opposition to a
12(b)(6) motion that “provides some substantiation for
and does not merely reiterate what is said in the
pleadings.” Gen. Retail Servs., Inc. v. Wireless Toyz
Franchise, LLC, 255 F. App’x.775, 785 (5th Cir. 2007);
see also Inclusive Cmtys.’ Project Inc. v. Lincoln Prop.
Co., 920 F.3d 890, 900 (5th Cir. 2019) (holding that
when evaluating a 12(b)(6) motion a court is limited to
the “facts set forth in the complaint, documents
attached to the complaint” and documents attached by
the defendant to its motion to dismiss that are
referenced in the plaintiff’s complaint).
Even if the district court “did not explicitly inform
the parties that it was converting the motion to dismiss
into a summary judgment,” an appellate court will
infer an implicit conversion if the district court looks
beyond the pleadings. Trinity Marine Prods., Inc. v.
United States, 812 F.3d 481, 487 (5th Cir. 2016).
However, the district court must give the parties,
especially the non-movant, ample notice that it may
consider “extra-pleading material” that would convert
the motion to a summary judgment. Id.
Boateng submitted new factual evidence in
opposition to BP’s motion to dismiss that did not
merely reiterate what he said in his pleadings but
provided the court with new substantiation for his
claims. In fact, Boateng even asserted an entirely new
legal theory that was not in his complaint: unjust
enrichment.1 Since the district court looked beyond the
1

When a plaintiff raises a new claim in opposition to a summary
judgment motion, the district court may consider the new claim for

App. 5
pleadings by considering new factual evidence, the
district court implicitly converted the motion to one for
summary judgment. And we conclude that Boateng had
ample notice that the district court would potentially
do so because he was the party urging the court to
review matters beyond the pleadings. See Darlak v.
Bobear, 814 F.2d 1055, 1065 (5th Cir. 1987) (finding
that a party who references matters outside the
pleadings is “on notice that the district court could
properly treat . . . [the] motion to dismiss as one for
summary judgment”). Thus, we will review the district
court’s decision de novo, under the summary judgment
standard.
B
A court should grant summary judgment “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. CIV. P. 56(a). “A
dispute is genuine if the summary judgment ‘evidence
is such that a reasonable jury could return a verdict for
the [non-movant].’” Hyatt, 843 F.3d at 177 (quoting
Anderson v. Liberty Lobby Inc., 477 U.S. 242, 248
(1986)). Such a dispute does not exist where the nonmovant’s “critical evidence is so weak or tenuous on an
essential fact” needed to prove his claim “that it could
not support a judgment in favor of the nonmovant.”
Little v. Liquid Air Corp., 37 F.3d 1069 (5th Cir. 1994).
relief even if the claim is not asserted in the pleading. See Stover
v. Hattiesburg Pub. Sch. Dist., 549 F.3d 985, 989 n.2 (5th Cir.
2008) (finding no error in the district court’s decision to consider
a new claim included in a response to a motion for summary
judgment).

App. 6
Thus, at the summary judgment stage of an unjust
enrichment claim, a defendant must show that the
factual evidence cannot reasonably demonstrate at
least one required element.
Under Louisiana law, unjust enrichment has the
following elements:
(1) there must be enrichment, (2) there must be
an impoverishment, (3) there must be a
connection between the enrichment and
resulting impoverishment, (4) there must be an
absence of “justification” or “cause” for the
enrichment and impoverishment, (5) there must
be no other remedy at law available to plaintiff.
Baker v. Maclay Prop’s Co., 648 So.2d 888, 897 (La.
1995).
Boateng’s critical evidence cannot reasonably
support an unjust enrichment claim because the
evidence fails to support a finding that BP was
enriched. Boateng’s critical evidence is a three-page
PowerPoint that he sent to BP. It contains crudely
annotated Clipart-esque pictures and extremely brief
descriptions of his plan to cap the oil spill. His plan for
stopping the leak “called for the removal of the bolts so
the cap-head could be removed and replaced with a
valve. That valve then could be either shut off to stop
the leak or connected to a new pipe to pump the oil to
the surface.” Boateng v. BPI, No. 11-1383, slip op. at *3
(E.D. La. Aug. 15, 2018). Yet, Boateng also submitted
BP’s technical briefing discussing the actual capping
process. The process described by BP is far more
complex, nuanced, and specific, and only has—at

App. 7
most—surface-level similarities to Boateng’s plan. It
would be unreasonable for a juror to believe that
Boateng’s superficial input conferred any benefit to BP,
whose highly-skilled engineers were struggling to cap
a complex oil spill thousands of feet underwater. We
conclude that Boateng’s critical evidence in this case
cannot support an unjust enrichment claim and
summary judgment in favor of BP is appropriate.
IV
Finally, Boateng requests that we remand his case
with instructions to grant him leave to amend his
complaint so that he can cure any deficiencies, arguing
that the district court failed to balance the proper
factors when it denied him leave. We “review[] a
district court’s denial of leave to amend a complaint for
abuse of discretion.” Engstrom v. First Nat’l Bank of
Eagle Lake, 47 F.3d 1459, 1464 (5th Cir. 1995) (citing
Avatar Expl. Inc. v. Chevron, U.S.A., Inc., 933 F.2d 314,
320 (5th Cir. 1991)). Generally, leave to amend should
be “freely give[n] . . . when justice so requires.” FED. R.
CIV. P. 15(a)(2).
First, it isn’t clear that the district court ever denied
a request for leave to amend. Boateng never made a
formal or separate request for leave to amend, choosing
instead to raise a new claim in response to BP’s
dismissal motion. In Sherman v. Hallbauer, we noted
that “a new allegation raised in a memorandum in
opposition to a motion for summary judgment should
have been construed as an amendment to the original
complaint.” 455 F.2d 1236, 1242 (5th Cir. 1972). If
anything, the district court implicitly granted Boateng’s

App. 8
request for leave to amend by considering his unjust
enrichment claim.
Regardless, if there was any error, it was harmless,
since Boateng’s claim lacks merit. See FED. R. CIV. P.
61; see also Debowale v. U.S. Inc., 62 F.3d 395, 395 (5th
Cir. 1995) (unpublished) (finding that while “[t]he
district court should have construed Debowale’s Bivens
claim, raised for the first time in his response to the
summary judgment motion, as a motion to amend [his]
complaint under FED. R. CIV. P. 15(a) and granted it,”
any “error [was] harmless” since “Debowale’s Fourth
Amendment claim [was] without merit”) (citing FED. R.
CIV. P. 61). Therefore, we DENY Boateng’s request.
CONCLUSION
Although BP initially moved for dismissal under
12(b)(6), the district court implicitly converted BP’s
dismissal motion into one seeking summary judgment
by granting Boateng’s request to consider matters
outside the pleadings. Summary judgment in favor of
BP is appropriate here because Boateng’s evidence
cannot support his claim that he conferred a benefit
upon BP.
Additionally, because Boateng’s claim is meritless,
any error in denying him leave to amend was harmless.
Accordingly, we AFFIRM the district court’s grant of
summary judgment and DENY Boateng’s motion for
leave to amend.

App. 9

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION NO. 11-1383
SECTION J(1)
JUDGE BARBIER
MAGISTRATE JUDGE VAN MEERVELD
[Filed August 29, 2018]
_________________________________________
WILLIAM BOATENG
)
)
versus
)
)
BP, PLC; BP EXPLORATION AND
)
PRODUCTION, INC.; BP AMERICA, INC.; )
BP PRODUCTS NORTH AMERICA, INC.; )
and BP INTERNATIONAL LIMITED
)
_________________________________________ )
JUDGMENT
In accordance with the Court’s Order & Reasons of
August 15, 2018 (Rec. Doc. 28), granting Defendants’
Motion to Dismiss for Failure to State a Claim;
IT IS ORDERED, ADJUDGED, AND DECREED
that Plaintiff William Boateng’s (“Plaintiff”) claims
asserted in the captioned matter are dismissed, that
Plaintiff shall take nothing, and that any costs of this
litigation other than attorney’s fees shall be borne by
Plaintiff.

App. 10
New Orleans, Louisiana, this 29th day of August,
2018.

s/______________________________
United States District Judge

App. 11

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION NO. 11-1383
SECTION J(1)
JUDGE BARBIER
MAGISTRATE JUDGE VAN MEERVELD
[Filed August 15, 2018]
_________________________________________
WILLIAM BOATENG
)
)
versus
)
)
BP, PLC; BP EXPLORATION AND
)
PRODUCTION, INC.; BP AMERICA, INC.; )
BP PRODUCTS NORTH AMERICA, INC.; )
and BP INTERNATIONAL LIMITED
)
_________________________________________ )
ORDER & REASONS
Plaintiff William Boateng filed this action against
several BP entities (collectively, “BP”) seeking
compensation for purportedly inventing the technology
that was ultimately used to cap the Macondo Well
during the 2010 oil spill in the Gulf of Mexico.1 Before
1

The case initially was consolidated with Multidistrict Litigation
(“MDL”) 2179, where it was automatically stayed. The Court
recently severed the case from MDL 2179, lifting the stay. (Rec.
Doc. 7).

App. 12
the Court is BP’s Motion to Dismiss for Failure to State
a Claim (Rec. Doc. 8; see also Rec. Doc. 27 (permitting
BP, plc to join motion)), Boateng’s opposition (Rec. Doc.
18), and BP’s reply (Rec. Doc. 26). The Court, having
considered counsels’ arguments, the record, and the
applicable law, grants the motion and dismisses
Boateng’s complaint for the reasons set forth below.
In order to survive a motion to dismiss under
Federal Rule 12(b)(6),
a complaint must contain sufficient factual
matter, accepted as true, to state a claim to
relief that is plausible on its face. A claim has
facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable
for the misconduct alleged. Threadbare recitals
of the elements of a cause of action, supported by
mere conclusory statements, do not suffice.
Although a complaint does not need detailed
factual allegations, the allegations must be
enough to raise a right to relief above the
speculative level. Conclusory allegations or legal
conclusions masquerading as factual conclusions
will not suffice to prevent a motion to dismiss.
Firefighters’ Ret. Sys. V. Grant Thornton, L.L.P., 894
F.3d 665, 669 (5th Cir. 2018) (citations, quotations, and
alterations omitted).
Boateng’s complaint alleges, in relevant part:
Due to the catastrophic nature of the spill and
BP’s inability to stop it, [BP] sought help and
ideas from outside sources. Plaintiff . . .

App. 13
responded to BP’s request for help and ideas,
providing BP with a . . . detailed proposal of
plans to cap the well and shut down the leak . . .
on June 10, 2010 and June 11, 2010 and June
25, 2010. BP acknowledged receipt of these ideas
in an e-mail on June 12, 2010, in an e-mail of
July 2, 2010, and in a letter sent to plaintiff on
September 2, 2010. BP did in fact [ ] use
methods which were substantially the same as
those provided to them by plaintiff in order to
cap the well and shut off the leak of oil. BP has
refused to compensate plaintiff for their use of
his plan and procedure to cap the well and shut
off the oil leak. . . . As a direct and proximate
result of defendants’ actions, plaintiff has
suffered damages including, but not limited to,
loss of income. Upon information and belief, the
ideas submitted by plaintiff to defendants in his
proposals were novel to the defendants.
Furthermore, knowledge of said ideas were not
widespread nor generic. The ideas were for a
specific application. Plaintiff at no time intended
for BP to use his proposal and plan without
compensation to plaintiff. Furthermore, upon
information and belief, BP had intent to pay for
idea submissions that they used such as the
ones submitted by plaintiff.
(Complaint ¶¶ 15-24, Rec. Doc. 1 (paragraph breaks
and numbers omitted)). The complaint then states,
“[T]he actions of BP . . . present a cause of action in
contract.” (Complaint ¶ 25). The complaint
alternatively pleads that “the actions of BP . . . present
a cause of action for misappropriation of plaintiff’s

App. 14
idea.” (Complaint ¶ 25). The Court will address
Boateng’s contract claim first.
“[A]n enforceable contract requires a meeting of the
minds.” Read v. Willwoods Cmty., 165 So. 3d 883, 887
(La. 2015).2 “A contract is formed by the consent of the
parties established through offer and acceptance.” La.
Civ. Code art. 1927. “Unless the law prescribes a
certain formality for the intended contract, offer and
acceptance may be made orally, in writing, or by action
or inaction that under the circumstances is clearly
indicative of consent.” Id.
The essence of Boateng’s contract claim is that BP
breached a contract with Boateng by using his plans
without compensating Boateng. Assuming for the
moment that BP actually used Boeteng’s plans, the
complaint fails to plausibly allege any facts from which
it can be reasonably inferred that BP agreed it would
pay Boateng for such use. The complaint does not
allege, for example, that BP promised—orally, in
writing, or through (in)actions clearly indicative of
consent—to pay Boateng if it used his plans. The
closest the complaint ever comes to making such
allegations is when it states that Boateng never
“intended for BP to use his proposal and plan without
compensation” and that “upon information and belief,
BP had intent to pay for idea submissions that they
used such as the ones submitted by plaintiff.”
(Complaint ¶ 23). But alleging that each side
subjectively intended that BP would compensate
Boateng only highlights the fact that the parties never
2

The parties appear to agree that Louisiana law governs Boateng’s
claims.

App. 15
actually agreed to such an arrangement. Because BP
could not breach a contract that did not exist, Boateng’s
claim for breach of contract must be dismissed.3
As to Boateng’s alternative “misappropriation of
plaintiff’s idea” claim, BP argues that the allegations
are so vague that it is unclear what legal theory
Boateng is attempting to assert. Continuing, BP urges,
“In any event, Plaintiff has not plausibly pled any
factual allegations that would support an allegation
that BP misappropriated any idea, regardless of what
legal theory he seeks to allege. (BP Mot. at 5, Rec. Doc.
8-1). Boateng responds that the complaint “was
referring to a cause of action based upon [La. Civ. Code
art. 2298,] Enrichment without Cause.” (Boateng Opp’n
at 5, Rec. Doc. 18). Because Boateng appears to concede
that the complaint fails to state a claim for
“misappropriation,” the Court will dismiss that claim.

3

Accord Holland v. BP America, Inc., No. 11-0580, 2012 WL
761980, at *6 (E.D. Cal. Mar. 7, 2012) (“[P]laintiff fails to allege a
mutual agreement as to the price to be paid for any ideas
submitted. Instead, plaintiff alleges he reasonably believed he
should be entitled to compensation. This shows that there was no
mutual assent. . . . [BP’s] failure to pay the invoice for the idea
submitted does not amount to a breach of contract, as there was no
contract formed wherein the parties agreed to the payment of a
specific fee for the ideas submitted.”); McIntyre v. BP Expl. &
Prod., Inc., No. 13-149, 2015 WL 999092, at *2 (D. Alaska Mar. 5,
2015) (“Plaintiff does not allege any specific solicitation by BP
directed at Plaintiff, only news reports and informational bulletins
which advertise contact information to allow people to volunteer or
provide ideas. Moreover, Plaintiff has not alleged any response
from Defendants that would suggest a ‘meeting of the minds’ on
any form of essential contract terms.” (footnotes omitted)), aff’d,
697 F. App’x 546 (9th Cir. 2017).

App. 16
Finally, while the complaint does not explicitly
plead “unjust enrichment” as a cause of action or
theory of recovery, the Court will examine whether
there is sufficient factual matter to state a claim for
unjust enrichment that is plausible on its face.
Louisiana Civil Code article 2298 states, in pertinent
part:
A person who has been enriched without cause
at the expense of another person is bound to
compensate that person. The term “without
cause” is used in this context to exclude cases in
which the enrichment results from a valid
juridical act or the law. The remedy declared
here is subsidiary and shall not be available if
the law provides another remedy for the
impoverishment or declares a contrary rule.
The amount of compensation due is measured by
the extent to which one has been enriched or the
other has been impoverished, whichever is
less. . . .
The elements for an unjust enrichment claim are:
(1) there must be an enrichment, (2) there must be an
impoverishment, (3) there must be a connection
between the enrichment and resulting impoverishment,
(4) there must be an absence of “justification” or
“cause” for the enrichment and impoverishment, and
(5) there must be no other remedy at law available to
plaintiff. Barker v. Maclay Props. Co., 648 So. 2d 888,
897 (La. 1995).
Boateng’s complaint provides only vague
descriptions of what he submitted to BP. In his

App. 17
opposition brief, however, Boateng states that his plan
“called for the removal of the bolts so the cap-head
could be removed and replaced with a valve. That valve
then could be either shut off to stop the leak or
connected to a new pipe to pump the oil to the surface.”
(Opp’n at 5, Rec. Doc. 18). Attached to Boateng’s
opposition are images depicting the proposal he
allegedly submitted to BP, as well as images of the
capping stack actually used by BP to stop the
discharge. (Rec. Docs. 18-2, 18-4). Since this additional
material is presented by Boateng, the Court will treat
it as if it was included in the complaint for purposes of
the instant motion.
The Court finds that Boateng’s complaint, including
the additional descriptions and images included in his
opposition, fails to establish that he conferred an actual
benefit upon BP. Boateng’s proposal was to unscrew
the bolts of a flange and place a valve on top of the
blowout preventer. The capping stack and transition
spool actually used by BP were far more complex.
Boateng’s own exhibit depicting images of BP’s device
next to Boateng’s proposed valve reveal that Boateng’s
proposal was a far cry from what was actually used.
(See Rec. Doc. 18-4). As another district court
determined on a Rule 12(b)(6) motion:
By Plaintiff’s own admission there are additions,
modifications, and outright differences between
his proposal on May 14, 2010, and the evolution
of Defendants’ ultimate method for capping the
Well. Plainly stated, there are minimal
similarities between the ideas submitted by

App. 18
Plaintiff and the final capping method utilized
by Defendants. . . .
. . . Anyone familiar with a garden hose has
experienced the concept of a valve that can
regulate the flow of fluid and ultimately shutoff
that flow under pressure. Such a common
feature in piping, regardless of the terminology
Plaintiff uses to describe its function, can hardly
be considered a unique or novel idea. Similar to
the court in Reeves, this Court finds that even if
Plaintiff’s idea inspired Defendants’ ultimate
capping method, Plaintiff has failed to
demonstrate that his idea was sufficiently
original and novel to confer a benefit to
Defendants. Without a benefit conferred,
Plaintiff has failed to meet the elements
necessary to establish a quasi-contract cause of
action.
McIntyre, 2015 WL 999092, at *2-3. The notion that BP
was enriched by Boateng’s proposal is facially
implausible. Accordingly, the Court will dismiss
Boateng’s unjust enrichment claim.
Because Boateng’s complaint fails to state a claim
to relief that is plausible on its face,
IT IS ORDERED that BP’s Motion to Dismiss for
Failure to State a Claim (Rec. Doc. 8) is GRANTED,
and
IT IS FURTHER ORDERED that William
Boateng’s Complaint (Rec. Doc. 1) is DISMISSED.

App. 19
New Orleans, Louisiana, this 15th day of August,
2018.

s/______________________________
United States District Judge

App. 20

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-31032
[Filed August 2, 2019]
_________________________________________
WILLIAM BOATENG,
)
)
Plaintiff–Appellant,
)
)
v.
)
)
BP, P.L.C.; BP EXPLORATION &
)
PRODUCTION, INCORPORATED;
)
BP AMERICA, INCORPORATED;
)
BP PRODUCTS NORTH AMERICA,
)
INCORPORATED; BP INTERNATIONAL )
LIMITED,
)
)
Defendants–Appellees.
)
_________________________________________ )
Appeal from the United States District Court
for the Eastern District of Louisiana
ON PETITION FOR REHEARING
Before DAVIS, HIGGINSON, and WILLETT, Circuit
Judges.

App. 21
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.

ENTERED FOR THE COURT:
/s/___________________________________
UNITED STATES CIRCUIT JUDGE

App. 22

APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION NO. 11-1383
[Filed June 10, 2011]
_________________________________________
WILLIAM BOATENG
)
)
Plaintiff
)
)
versus
)
)
BP, plc, BP EXPLORATION AND
)
PRODUCTION, INC., BP AMERICA, INC., )
BP PRODUCTS NORTH AMERICA, INC., )
and BP INTERNATIONAL LIMITED
)
)
Defendants
)
_________________________________________ )
COMPLAINT FOR DAMAGES
Plaintiff, William Boateng (“Plaintiff’), a person of
the full age of majority and a resident of the State of
New York, brings this action against the defendants
identified below (“Defendants”), and avers as follows:

App. 23
PARTIES
1.
Plaintiff, William Boateg, is a resident of the State
of New York.
2.
Defendants herein are:
(a)
BP, plc (“BP, plc”) is a corporation organized
and existing under the laws of the United Kingdom,
with its principal place of business in London, England.
BP, pie is one of the three largest integrated energy
services companies in the world, with more than
100,000 employees and operations in more than 100
countries on six continents. BP, plc is doing business in
the state of Louisiana.
(b)
BP Exploration and Production, Inc. (“BP
Exploration”) is a foreign corporation doing business in
the state of Louisiana.
(c)
BP America, Inc. (“BP America”) is a foreign
corporation doing business in the state of Louisiana.
(d)
BP Products North America, Inc. (“BP
Products”) is a foreign corporation doing business in
the state of Louisiana.
(e) BP International, Limited is a corporation
existing under the laws of the United Kingdom.
Defendants are collectively referred to hereinafter
as “BP”.

App. 24
JURISDICTION AND VENUE
3.
This Court has jurisdiction over this class action
pursuant to (1) 43 U.S.C § 1349(b)(1) because this case
arises out of, or in connection with operations
conducted by Defendants on the outer Continental
Shelf for the exploration, development, or production of
the minerals (oil) of the subsoil and seabed of the outer
Continental Shelf; (2) 28 U.S.C. § 1332, because the
matter in controversy exceeds the sum or value of
$75,000.00, exclusive of interest and costs, and there is
complete diversity of citizenship. (3) 28 U.S.C. § 1331,
because the claims asserted herein arise under the
laws of the United States of America, including the
laws of the State of Louisiana which have been
declared, pursuant to 43 U.S.C. §§ 1331 (f)(1) and
1333(a)(2), to be the law of the United States for that
portion of the outer Continental Shelf from which the
oil spill originated; and (4) 43 U.S.C. § 1333(a)(1),
which extends exclusive Federal jurisdiction to the
outer Continental Shelf.
4.
Prosecution of this action in this district is proper
under (1) 43 U.S.C. § 1349(b)(1)(B) because the Eastern
District of Louisiana is the judicial district nearest the
place where this cause of action arose; and (2) 28
U.S.C. § 1391(a)(2) because the events or omissions
giving rise to the claims asserted herein occurred in
this district.

App. 25
5.
An MDL proceeding captioned as Oil Spill by the
Oil Rig “Deepwater Horizon” in the Gulf of Mexico, on
April 20, 2010, MDL 2179; Section: “J” which deals
with the Oil Spill in question is presently pending in
this district (the United States District Court for the
Eastern District of Louisiana).
FACTUAL ALLEGATIONS
6
BP is the holder of the Lease, which allows BP to
drill for oil and perform oil production-related
operations at the site of the oil spill. BP leased the
Deepwater Horizon to drill an exploratory well at the
Macondo prospect site in Mississippi Canyon Block
252, located on the outer Continental Shelf off the coast
of Louisiana. On April 20, 2010, the BP Defendants
operated the oil well that is the source of the oil spill.
7.
At all times material hereto, the Deepwater Horizon
was owned, manned, possessed, managed, controlled,
chartered and/or operated by Transocean and/or BP.
8.
There was a fire and explosion on the Deepwater
Horizon, as specified herein, which caused its sinking
and resulted in a long term unchecked oil spill.
9.
On April 20, 2010, at approximately 9:45 p.m. CST,
a mass of oil, natural gas, drilling mud and salt water

App. 26
erupted from the wellhead at the Macondo prospect site
in the Gulf of Mexico off the shores of Louisiana,
engulfing the Deepwater Horizon in fire and sinking
the rig 36 hours later.
10.
Prior to its destruction, the rig was an ultradeepwater dynamic-positioned, semi-submersible oil
rig. The rig was positioned about 50 miles southeast of
Venice, Louisiana, in water nearly 5,000 feet deep. At
the time of the explosion, drilling was being conducted
at over 22,000 feet – 2,000 feet deeper than allowed by
the Permits issued by the MMS.
11.
The leak spilled, by conservative estimates, over
5,000 barrels of petroleum – equivalent to over 200,000
gallons – into the Gulf of Mexico each day. Some
reports suggest that these estimates are woefully low,
and that the actual flow could have been as great as
100,000 barrels a day.
12.
At the time of the explosion on April 20, 2010, the
Deepwater Horizon was not producing any oil. The rig
had drilled a well in the sea floor and was attached
thereto and was in one of the last phases of the
exploratory operations prior to turning the well into a
production well. In this final phase, Halliburton
workers on the rig, under the supervision and control
of BP employees, were attempting to create a cement
seal to plug off the wellhead. BP employees under the
supervision and control of one or more of the BP

App. 27
Defendants had authority over the Halliburton workers
to determine the type and amount of cement to be used.
13.
Cementing a wellhead, particularly in deep water,
is delicate work that carries the risk of a blowout, or an
uncontrolled release of oil and/or natural gas from the
well. Defendants knew that the work being performed
at the Deepwater Horizon rig was especially risky.
14.
The April 20, 2010 explosion and fire led to an
uncontrolled oil leak in the Gulf of Mexico, covering at
least 3,850 square miles of fragile ocean and wetlands
marine life. The disaster caused great damages–
endangering the coasts of Louisiana, Mississippi,
Alabama, and Florida for generations to come and
wiping out the habitat of hundreds of species of marine
and oceanic life. More than 400 species, including
whales and dolphins, face a dire threat from the spill,
along with the coastlines, islands, and marshlands.
15.
Due to the catastrophic nature of the spill and BP’s
inability to stop it, they sought help and ideas from
outside sources.
16.
Plaintiff, William Boateng, responded to BP’s
request for help and ideas, providing BP with a
detailed procedure which would allow them to cap the
well and stop the oil leak as described more specifically
below.

App. 28
17.
Plaintiff, William Boateng, presented a detailed
proposal of plans to cap the well and shut down the
leak BP on June 10, 2010 and June 11, 2010 and June
25, 2010. BP acknowledged receipt of these ideas in an
e-mail on June 12, 2010, in an e-mail of July 2, 2010,
and in a letter sent to plaintiff on September 2, 2010.
18.
BP did in fact, use methods which were
substantially the same as those provided to them by
plaintiff in order to cap the well and shut off the leak of
oil.
19.
BP has refused to compensate plaintiff for their use
of his plan and procedure to cap the well and shut off
the oil leak.
20.
Plaintiff incorporates by reference each and every
allegation set forth above.
21.
As a direct and proximate result of defendants’
actions, plaintiff has suffered damages including, but
not limited to, loss of income.
22.
Upon information and belief, the ideas submitted by
plaintiff to defendants in his proposals were novel to
the defendants. Furthermore, knowledge of said ideas

App. 29
were not widespread nor generic. The ideas were for a
specific application.
23.
Plaintiff at no lime intended for BP to use his
proposal and plan without compensation to plaintiff.
Furthermore, upon information and belief, BP had
intent to pay for idea submissions that they used such
as the ones submitted by plaintiff.
24.
The idea presented by plaintiff to BP had originality
and novelty and was not free and available to the
public.
25.
Plaintiff specifically pleads that the actions of BP
presented herein present a cause of action in contract.
Alternatively, plaintiff respectfully pleads that the
actions of BP presented herein present a cause of
action for misappropriation of plaintiff’s idea.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff demands judgment against
Defendants, jointly, severally and in-solido as follows:
a. Economic and compensatory damages
amounts to be determined at trial;

in

b. Pre-judgment and post-judgment interest at the
maximum rate allowed by law;
c. Court costs expenses;

App. 30
d. Such other and further relief available and any
relief the Court deems just and appropriate.
RESPECTFULLY SUBMITTED BY:
BECNEL LAW FIRM LLC
/s/Darryl J. Becnel
Daniel E. Becnel Jr. (T.A. LA Bar No.24567)
Darryl J. Becnel (LA Bar No. 22943)
Salvadore Christina, Jr. (LA Bar No. 27198)
P.O. Drawer H
Reserve, LA 70084
(985) 536-1186
(985) 536-6445 Fax
dbecnel@becnellaw.com
darrylbecnel@becnellaw.com

